          STATE liCENSURE AND

       DISCIPLINE OF OPTOMETRISTS





                    Richard P. Kusserow
                    INSPECTOR GENERAL




OAI- 01-88- 00582                         FEBRUARY 1989
                                     .................................
                            .... ............................
                                  ....... .... .........         .....
                                                  ................
                                                         .......... ..........
                                                                         .......  .... .......................
                                                                           ..........
                                                                    .........................................
                                                                                 ....  ..............................
                                                                                       ........      .... ......     ..................
                                                                                                            .......................
                                                                        ..............................................
                                                                                                               ......................
                                                                                                                 ..........................
                                                                                                                     ....... ................
                                                                                                                             ......




                                                TABLE OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION.............. ... ...................................................................................
                               
                                                                                    1
   THE PRACTICE OF OPTOMETRY """"'"''''''''.''''''''''''''''''''''''''''''''_nnn_                              ''' 2
       STATE BOARDS OF OPTOMETRY '''''''''''''''''''''''''''''''''''''''''_nnn                                                 '''''''''''''' 5

LICE NSU RE................... ........................................................................................ 6
       THE DIVERSITY IN THE SCOPE OF PRACTICE ................................. 7
       R ECI P ROCITY ............................................................................................... 8
       EMPHASIS ON CLINICAL TESTING
       BACKGROUND VERI FICA TION............................................... 


DISCI PLINE ......................................................................................................... 12
    INCIDENCE AND TYPE OF DISCIPLINARY ACTIONS
    TYPE OF VIOLATIONS ............................................................................... 16
    SOURCE OF DISCIPLINARY ACTIONS.......................................... 

    ADMINISTRATIVE PROCESS .................................................................... 18
     NFORMA TION SHARING .......................................................................... 18

RECOMMENDATIONS ... .......... .......................... ....... ....................... ..... .............. 20

APPENDIX I ............. ........... .... 

   COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE
      PHS COM ME NTS                                                                                  ......... 23
      HCF A COMM ENTS . ................................ ..................................................... 23
      AMERICAN OPTOMETRY ASSOCIATION COMMENTS
      INTERNATIONAL ASSOCIATION OF BOARDS
      OF EXAMINERS IN OPTOMETRY COMMENTS...............................                                                                           26
      NATIONAL BOARD COMMENTS...............................................                                                                      28


APPENDIX II .... .....
   BACKG RO U N D                                                                                                      .... .............. 30

APPENDIX" I ....................................................................................................... 33
   METHODOLOGICAL NOTES ................................ .......... ......... .................. 33

APPENDIX IV............................................ ....... .................................................... 34
      END NOTES.................................................................................................. 34
                                  EXECUTIVE SUMMARY

PURPOSE AND OBJECTIVES

The overal ai of    this inspection was to promote a better understanding of State licensure and
discipline practices concerning dentists, chiropractors, optometrsts, and podiatrsts. In regard
to these practices, it sought to identify the extent and type of changes occurrng, the major is­
sues being addressed, and the kinds of improvements that might be made.

BACKGROUND

The inspection follows up on a simlar inquiry that was conducted by the Office of Inspector
General in 1985 and 1986 that addressed medical licensure and discipline. It is based primar­
ly on the lines of inquir: (1) telephone discussions with board members or staff of State
licensure and discipline bodies in the four professional areas noted above, (2) a review of per­
tinent liter tue and data bases, and (3) discussions with representatives of national profes­
sional associations.

This report focuses on the licensure and discipline of optometrsts. It is the four and final
report issued as par of this inspection. Its organization and presentation closely parallel that
of the previous reports concerning dentists, chiropractors, and podiatrsts. A number of the
findings and recommendations also parallel those set fort in the previous reports.

FINDINGS

In both the licensure and discipline realms, State board officials tend to feel that they are un­
derstafed and that , as a result, the effectiveness of both licensure and discipline operations is
compromised.

Licensure

      Optometrc practice acts var widely from State to State. During recent years, this
      diversity appears to have increased as a number of States have passed laws allowing
      optometrsts to use therapeutic pharaceutical agents.

      The considerable varation among State laws governing the use of pharaceutical
      agents has inhibited the use of reciprocity agreements among State boards, thus limiting
      the interstate mobilty of practicing optometrsts.

      Clinical testing of licensur candidates is a major focus of State optometr boards. The
      contents of these tests var as do the determinations of acceptable performance.
     Among State optometr board offcials, paricularly in the larger States, there is an
     increasing sense of vulnerability about the adequacy of the infonnation they review on
     applicants for licensure.

Discipline

     As of May 1987, all boards had the right to revoke a license and 48 had the right to
     suspend a license. Most boards, however, lacked the authority to invoke probation , issue
     reprimands, impose censure, apply restrctions on optometrc practice, or levy fines.

     Most State boards lack the authority to issue subpoenas or to suspend immediately the
     license of an optometrst who poses a clear and present danger to the public.

     From 1984 to 1986, the annual number of State board disciplinar actions has increased
     moderately. For the 46 States from which we obtained data, the number rose from 157
     in 1984 , to 209 in 1985, to 224 in 1986. In 1987, however , about 40 percent of all the
     disciplinar actions were in just one State. Ten States disciplined no optometrsts during
     the period 1984- 1986.

     The more serious types of disciplinar actions--revocations, suspensions, and
     probations--account for a minority of the disciplinar actions taken against optometrsts.
     In the 1984- 1986 period, they composed 42 percent of all reponed actions.

     Higher rates of disciplinary action appear to be closely associated with above-average
     licensure renewal rates. Among the 10 boards with the highest rate of disciplinary
     action between 1984 and 1986, 8 had 1987 renewal fees equal to or above the median
     renewal of $50.

     About two- fifths of the 49 State boards we contacted cited " unprofessional conduct " as
     the most common tye of violation upon which disciplinar action was taken. Under
     this category, the most frequent specific violations cited were unlawful use of
     therapeutic pharaceutical agents and unlawful delegation of authority to opticians and
     other personnel.

     Consumer complaints are the major source of referrals for disciplinary actions taken
     against optometrsts. Only three States reported referrals from professional societies as
     the first or second most importnt source of referrals.

    About three- fifths of the 49 State boards we contacted identified some problems
    associated with the disciplinar process. Most of these concerned the amount of time
    required to complete a case or the lack of trained investigatory staff with knowledge of
    optometr .
      Many State board officials expressed support for the national data ban to be established
      under the Health Car Quality Improvement Act of 1986 and the Medicare and
      Medicaid Patient and Program Protection Act of 1987. However , they and others raised
      concerns involving the accurcy, confidentiality, accessibility, and timeliness of the
      data, as well as the time and cost burdens associated with the reporting process.

RECOMMENDATIONS

      State governments should ensure that State optometr boards have sufficient resources
      to   car out their responsibilties effectively.
      State governments should ensure that State optometr boards have sufficient
      enforcement authority and a full range of disciplinar options available to them.

      State optometr boards should move toward the development of a high- quality,
      standardized national clinical examination.

      State optometr boards should shore up their credentials verification procedures.

      The International Association of Boards of Examiners in Optometr (lAB) should
      accumulate and, on a regular basis, disseminate to State optometr boards: (1) changes
      in State practice acts and regulations , and (2) best practices concerning State licensure
      and discipline approaches.

     The American Optometrc Association (AOA) shoula encourage more extensive and
     effective interaction between its affiiated State associations and State optometr boards.

     The Public Health Service (PHS) should assist the lAB to car out a more effective
     leadership role in working with the State optometr boards.

COMMENTS

The PHS concuITed with the recommendation directed to it. The AOA and lAB expressed
general support for the recommendations directed to them. The full comments of these or­
ganizations and of the Health Care Financing Admnistration and the National Board of Ex­
aminers in Optometr as well as our responses to them appear in appendix IV.
                                      INTRODUCTION


In June 1987, the Offce of Inspector General began an inspection on State licensure and dis­
cipline practices concerning dentists, chiropractors, optometrsts, and podiatrsts. The overrd­
ing purose of the inspection was to provide the Federal and State governments and the
respective professional communities with a better understading of these practices. More
specifically, it sought to identify the extent and type of changes takng place , the major issues
being addressed, and the kinds of improvements that might be made. (For more background
on why the study was undertaken , see appendix II.

This report, which focuses on the optometr profession , is the third in a series to be issued as
par of the above-noted inspection. It is based on three major lines of inquir:
(1) telephone discussions with board members or staf associated with optometr licensure
and discipline bodies in 49 States; (2) a review of pertnent literature and data bases, includ­
ing joural arcles, studies, prepared speeches, and statistical compilations of public and
private organizations; and (3) discussions with representatives of varous professional as socia­
tions. These include the American Optometrc Association (AOA), the National Board of Ex­
aminers of Optometr, the International Association of Boards of Examiners in Optometr
(lAB), the Council on Optometrc Education 
    (CDE), and the Association of Schools and Col­
leges of Optometr (ASCO). (For more methodological background , see appendix III.)

Optometrsts are a growing presence on the national health care scene. In 1986, there were
  500 practicing optometrsts in the United States, an increase of 4 100 from 1975. 1 Under
the Federal Medicare program, the role of optometrsts, although limited, is increasing. Treat­
ment eligible for coverage, once limited to examnations of aphakc patients (patients without
lenses), was expanded in April 1987 to include examnation and treatment of specific medical
conditions. Prescrptions for eye lasses, with the exception of eyeglasses for post-cataract
surgery patients, ar not covered. Although data ar not yet available to reflect the expanded
coverage, Medicare reimbursement to optometrsts is increasing. Medicare Par B expendi­
tures for optometr services increased from $5.3 millon in Fiscal Year (FY) 1984 to $16.
million in FY 1985. 3 A 1987 surey of optometrsts in both solo and group practice indicated
that Medicare expenditurs represented 3. 1 percent and 7. 9 percent of their total revenues,
respecuve y.

Under Medicaid , the role of optometrsts and the level of expenditures are more diffcult to
detennne. As of 1984 , 48 States covered optometrc services as an option , and 19 of these
limited the coverage to the categorically needy. 5 Surveys of optometrsts in group and solo
practice indicated that in 1986 Medicaid fees represented 5 percent and 5. 8 percent of their
total revenues, respectively.

This report stas out with brief overviews of optometr practice and State optometrc boards.
It then turs to an examination of the major changes and issues affecting licensure and dis­
cipline. It closes with some suggested aras of action directed primarly to State boards of op­
tometrc examiners.

THE PRACTICE OF OPTOMETRY

The American Optometrc Association defines doctors of optometr as:

            priar care health professionals who are specifcaly educated, clinically trained
            and state licensed to examine the eyes and vision system , diagnose problems or im­
            paients, and    prescribe and provide treatment. Among the tyes of treatment
            used are prescription glasses, contact lenses, vision therapy, low vision aids, and in
            many states, phanaceutical agents for therapeutic puroses.

Some optometrsts, especially those in group practices, are electing to focus on a specific area
of vision care or on a specifc patient population. For example, some optometrsts are
specializig in occupational vision needs, sports vision needs, or the specific vision needs of
the elderly, children , or those with low vision. Of al private practitioners , approximately 60
percent practice in solo settings, but group practice and specialization appear to be increas-
ing. 8 The Association of Schools and Colleges of   Optometr and the American Optometrc
Association are promoting specialties and group practice in the belief that these practices offer
the highest quality of care. Accordingly, they have developed through a joint effort a practice
management cuniculum and are encouraging schools to implement it.

For those optometr school graduates seeking specialzed training, there are cUITntly about
50 optometr residency positions available in the United States. This represents only 6 per­
cent of the most recent graduating class of optometrsts in the countr. However, only 8 per­
cent of third- and fourh- year optometr students sureyed expressed an interest in a residency
after graduation.

One of the most strng characteristics of optometr practice today is the rapid change occur-
rig in service delivery settings. Although private practice continues to dominate, an increas­
ing proporton of optometrsts is employed by optical chains and health maintenance
organizations (HOs). In 1986, 73 percent of the 24 500 active optometrsts practiced in
private settings, representing a 10 percent decrease over the past decade. The number of op­
tometrsts working for optical chains more than doubled in 10 years and by 1986 they repre­
sented 17 percent of all practicing optometrsts. The number of those employed by HMOs
followed a similar trend, composing 6 percent of practicing optometrsts in 1986. It appears
that this trend wil ' continue at least into the 1990' s as new graduates facing education loan
payments are likely to prefer to work for optical chains rather than star from scratch in
private practice. A survey revealed that optometrsts who graduated in 1980 went into private
practice twice as often as those who graduated in 1984. 10 Over 12 percent of 1984 graduates
worked for optical companies and 10 percent of 1987 graduates who were recently surveyed
antICIpate omg so.

Accordingly, private practitioners ' share of the market has grdually been decreasing. In
1986 , private optometrsts accounted for 27. 6 percent of the ophthalmic market (i. e.,
optometrsts, ophthalmologists, and opticians), a 1.2 percent decrease from 1985, and a 16.4
percent decrease from 1976. In contrast , HMOs and optical chains experienced the most
growth over the decade, controllng 28. 5 percent of the ophthalmic market by 1986. In
response to this development, many private practitioners have fonned buying groups in which
parcipants receive discounts on ophthalmic supplies and equipment so that they can compete
more effectively with optical chains. A recent survey revealed that 72 percent of optometrists
belong to one or more buying groups.

Some optometrsts are concerned that Increased competition may have an adverse effect on
their income prospects. Their concerns are reinforced b
                                                         r the fact that over the last decade
their income has not kept pace with the rise in inflation. 3 More recently, however, it appears
that optometrsts ' financial situation has improved. In 1986, the most recent year for which in­
come data are available, the median income of optometrsts increased to $58, 200; this repre­
sents a 6 percent increase from 1985--about twice the national rate of inflation in that period.

Income vares considerably by the type of optometrc practice. A 1986 nationwide survey of
350 optometrsts revealed that those in group or parnership practices net the highest annual in­
come, reach their income peak earlier in their careers, and maintain a higher level of earnings
longer than salared or solo practitioners. Specifically, group practitioners ' average net in­
come in 1986 was $78, 000, which was $12, 500 more than solo practitioners and $26, 000
more than salared practitioners.

The number of active optometrsts has increased moderately in recent years. Between the
years 1970 and 1984 , the number of active optometrsts has increased from about 18,400 to
about 23, 600 (figure I) or from 8. 9 per 100, 000 population to 9. 9. The U. S. Public Health Ser­
vice projects that the national need for optometrsts wil reach 30,400 or 11.3 per 100 000
                                                                                        1 On
population by the year 2000, roughly the same as its projection for supply that year.          the
other hand, the AOA maintains that a " reasonable rate " of optometrsts per 100, 000 of popula­
tion is 14.3 and estimates a need for 36, 000 optometrsts in 1990, 600 more than the Public
Health Service s year 2000 projection.



                                        FIGURE I
                          TIMATED NUMBER OF ACTIVE OPTOMETRISTS:
                               SELECTED YEARS, 1970-1984

 Thousands of Optometrists
                 25 r

                 24




                                                1975             1980                      '9c':

Source: FIrtH REPORT TO THE PRESIDENT AND

CONGRESS ON THE STATUS OF HEALTH PERSC! :.EL,
More   r. 198f
Optometr is becoming populated by ever younger professi onals. Sudden increases
graduates in the mid- 1970' s and the grdual increase in subsequent years until 1984 lowered
the median age of the profession from 48 to 42 years. In 1984 , the number of newly graduat­
ing optometrsts exceeded the number of optometrsts leaving the profession by 50 percent.
                                                                                19 As in
The median age wil continue to decrease as large numbers of optometrsts retire.
other health professions, the percentage of women entering optometr has significantly in­
creased. In 1984 , women represented 27.4 percent of optometr graduates, a higher propor­
tlon t an t ose              entlstr an po latr.

The distrbution of optometrsts has remained                uneven. In 1984 , for instance, there were 11.
optometrsts per 100   000 population in the West, 11. 1 in the Midwest , 9. 9 in the Northeast
and 8. 0 in the South. 1 Ten States, 9 of them southern, have what AOA terms a " critical ratio
of less than 7 practicing optometrsts per 100, 000 population. Only 7 States, 3 of them
western, have an " acceptable ratio " of more than 13 optometrsts per 100, 000 population.

The location of schools of optometr is a prime factor in determining where optometrsts prac­
tice. Nearly thre- fourts of optometrsts under 45 who practice in States that have an op­
tometr school graduated from the in- State school. The proporton of all active optometrists
who graduated from a school within their State of practice is more than 93 percent in Ilinois,
82 percent in California, and 80 percent in Massachusetts.

Since 1981, the number of optometr schools has grown. In the years 1981- 1982, three
                24 and one--
schools opened               in Florida:- is anticipated to open in the near future. Currently
schools of optometr are accredited by the Council of Optometrc Education. Three of these,
the University of Waterloo, the University of Montral, and the Puerto Rican Inter- American
University of Optometr, are located outside of the continental United States. Five of the
                                                              25 All received a porton
schools are free-standing, and 10 are university- affiliated.                          of the
cumulative $75 millon of Federal aid distrbuted to optometr schools between the years
1965 and 1980 under the authority of the Health Professions Education Act.

The 1970' s were the major growth years for enrollment in optometr schools. During the
1971- 1981 period , total enrollment in optometr schools rose by about 60 percent. However
since the peak year of 1981 , enrollments have been declining, albeit slightly (see figure II).
                                                      FIGUR II
                             GE!\ERAL TRE!\DS FOR FIRST-YEAR A!\D TOTAL
                             ENROLLMEI\TS IN. AND GRADUATION FROM. U.
                      OPTOMETRY SCHOOLS. SELECTED YEARS. 1972-1987
                     500                                                              irst- Yeor
                                                                                      nroltment
                     4500
                                                                                     Totol EnrOllmE'

                     400
                                                                                     Groauot.C"
                     3500

                     3000
                     2500
                     2000
                     1500

                     100:'

                      50:'
                                      1S":   1975   1978   19: .            1957


           5:. .;r;:e A:"'!. I::C'"
           Colieges of Optometry
STATE BOARDS OF OPTOMETRY

Two decades ago, State optometr boards, like State medical boards, were little noticed en­
tities of State Government and were dominated almost completely by optometrsts. Most
were independent bodies, having little operational interaction with other professional boards
or even with optometr boards in other States. Although their responsibilities typically
covered licensure and discipline, they focused priarly on the fonner and in pancular on the
development and admnistration of their own licensure examnations. They would discipline
optometrsts periodically, but their authority and readiness to do so were quite limited.

Now, the pictu is somewhat different. With the changing scope of optometr practice, a
growing emphasis on continuing education in optometr, the development of the consumer
movement, and the heightened concerns about the cost and quality of health care, optometr
boards function in a more visible environment with a greater degree of public accountabilty.
Although the scope and the intensity of the changes have not been as great as for State medi­
cal boards, they have still been significant.

About 60 percent of State optometr boards are now par of a centralized State agency, and at
least 70 percent have one or more nonoptomenist members on their board of directors. Nearly
all (96 percent) have responsibilty for both licensure and discipline, but the number and type
of licensure examations admnistered by boards var considerably by State.

The staf and financial resources available to the boards are not readily determined. Twenty-
five States reponed they have less than one full-time equivalent staf member assigned to the
optometr board, but in many cases this does not include staff reportng to a central agency
that may provide some assistance to the board. Simlarly, the budget of a board is often
obscured within the budget of a larger agency.

It is clear, however, that in nearly all States, the board revenues derive entirely from fees im­
posed on optomenists. These include application , examination , and varous other fees. The
major source of revenue is the annual renewal fee imposed on practicing optomenists. It ran­
ges from $20 to $250, the median being $50. 28 Fifty- five percent of the boards either im­
posed fee increases during 1986 or 1987 or scheduled them for 1988. Yet because boards
typically ar par of the State budget process and subject to the same budgetar and personnel
controls as other State agencies, fee increases do not necessarly mean increased resources for
the boards. Thus, even though optomenic licensure and discipline has grown to become an es­
timated $2 milion a year enterprise, 29 many board representatives feel they are seriously un­
derfunded in caring out their extensive responsibilties.
                                          LICENSURE


State boars of optometr have come to judge licensure applicants on the basis of three major
requirements: (1) graduation from an accredited or approved optometr school; (2) passage of
a National Board of Optometr Examnation (NBOE) or State- wrtten examination; and (3)
passage of a State clinical examation.

Of these thee requirements, the first is the most unifonnly   applied. All State boards except
one require that those who attended optometr school in the United States be grduates of a
school accredited by the Council on Optometrc Education (CaE). The one exception wil
evaluate the equivalency of a licensure applicant s education to State standards if that ap­
plicant has not graduated from a CaE-accredited school. For those seeking a State license
who are grduates of nonaccredited foreign schools, eight State boards contract with parcular
accreditation services to detennne the adequacy of the training offered.

The second requirement, concerning wrtten     examnations, is much more vared in its applica­
tion. Sixteen States require the   examnation prepared and administered by the National Board
of Examners of Optometr in lieu of a State wrtten examination; 16 require the National
Board examnation in addition to a State wrtten examnation; and 6 do not accept the Nation­
al Board examnation at all but require applicants to take State-specific wrtten examinations.
The remaining States may delegate an examnation at the discretion of the board or contract
with a thd par to constrct and admnister an examnation. Fort-six States re uire
evidence of board-approved continuing education courses for licensure renewal.

Because 40 States require a wrtten examnation and 32 States consider the National Board
wrtten examnation scores for licensur, approximately 4 000 candidates take the National
Board examation each year. The National Board' s test is a criterion-referenced examina­
tion. With this procedur, which was first implemented by the National Board in 1981
                                                                                    , grad­
ing on the basis of a curve was eliminated and was grounded instead on a perfonnance index
for each test item administered.

In 1987 , the National Board implemented a new content outline, which consolidated the pre­
vious nine sections of the examination into two pars, basic science and clinical science.
third par covering patient car, now being developed by the National Board, wil r:eplace the
retired clinical assessment section of the past examination in 1989. Eligible candidates for
par I are those students who are at least in the second half of their second professional year in
an accredited school , and eligible candidates for par II are those in the second half of their
third year.



The third requirement for licensure, a practical examination , is the most inconsistently applied
among States. Twenty-eight States require such an examnation, and nine consider it option­
    34 (The
al.         remaiing States do not require a practical examination. ) These examinations seek
to detennne the clinical readiness of a candidate, although the content and stadard of accept­
able perfonnance var by State.
In addition to the 3 core requirements for licensure, 42 States require the applicant to be in
good moral standing, 39 have a minimum age requirement, 9 require U. S. citizenship, 5 re­
quir an oral examnation (11 consider it an option of the board), 2 require a post examination
internship of 6 months, and 3 require State residency.

Over the past 3 to 4 years State licensure requirements have been the focus of much attention.
Forty percent of the States (23) reported legislative or regulatory changes and 75 percent of
these changes involved the scope of optometr practice. Two major consequences of these
changes have been increased diversity in the scope of practice from State to State and thus
reduced inter- State mobilty for practicing optomenists. Two other less prominent consequen­
ces have been an increased emphasis on State clinical examinations and more attention to the
adequacy of background infonnation on applicants.

THE DIVERSITY IN THE SCOPE OF PRACTICE

Although the definition of optomenists is by and large similar from State to State, the scope of
optometr practice is becoming more diverse as a result of changes in State optometr prac­
tice acts durng the past 3 to 4 years. About half of the States report such changes, nearly two-
thirds of which involve the use of pharceutical agents (drgs). CUlTently, 50 States
specifically permt the optometrc use of phanaceuticals for diagnostic purposes and 23
States permt their use for both diagnostic and therapeutic purposes. 36 Sixteen of these States
have alowed the use of therapeutic phanaceutical agents (TPA) since 1985. Only one State,
Marland, does not have any provision either providing for or prohibiting phanaceutical
agents.

Optometrc practice acts var widely from State to State. Nort Carolina, one of the first to
authorize diagnostic treatment of eye disease, defines the practice of optometr to be:

           The examnation of the human eye by any method other than surgery to diagnose,
           to treat, or to refer for consultation or tratment any abnonnal condition of the
           human eye and its adnexa;

           The employment of instrments, devices, phanaceutical agents and procedures,
           other than surgery, intended for the purpose of investigation , examning, treating,
           diagnosing, or cOlTecting visual defects or abnonnal conditions of the human eye
           or its adnexa;

           The prescribing and application of lenses, devices to corrct, relieve , or trat
           defects or abnonnal condition of the human eye or its adnexa.

In contrast, Wisconsin law states that optomenists cannot give medical tratment or prescribe
therapeutic drgs and defines the practice of optometr as follows:

           The employment of any optomenic means, including topical ocular diagnostic
           pharaceutical agents, to determne the visual efficiency of the human visual sys­
           tern , including refractive and functional abilties or preliminar diagnosis of the
           presence of ocular disease or ocular manifestations of systemic disease and other
           deparres from nonnal.

           The diagnosis and treatment of the refractive and functional abilty of the visual
           system and enhancement of visual perfonnance by prescribing, furnishing, fitting,
           or employing ophthalmic lenses, contact lenses, frames, aids, or prosthetic
           materials or admnistering visual training, ortoptics, visual therapy or any other
           optometrc means.



Because authorization of TPA use is a growing trnd, some State board officials predict it wil
be penntted nationwide within 5 years. However, even in States where TPA legislation has
been passed, it has been a controversial issue. One- third of the significant media coverage of
licensur practice reponed by State board officials involved new TPA legislation. Improper
prescribing by optometrsts who lack TPA cenifcation is a major concern expressed by offi­
cials in States where the legislation has passed or is pending. And the use of TPAs by op­
tometrsts has also crated uneasiness among ophthalmolo sts who see them as invading
what has trditionaly been the ophthalmologists '   domain.

The inconsistent authorization of TPA use nationwide has complicated State board licensure
procedurs, adding an additional step to the licensure process in the States where it has passed.
Founeen States now require applicants to pass the International Association of Boards of Ex­
aminers in Optometr (lAB) examnation in Treatment and Management of Ocular Disease.
This examnation documents an applicant s entr level competence in the use of drgs for
                     40 Six States, two of which do not require lAB'
therapeutic puroses.                                                  s examnation , require ex­
tensive continuing education credits (an average of 5 hours annualy) or completion of board-
approved courses for certfication in the use of TPA.

The verication and  application process has also become more complex as States seek to
detennne applicants ' abilty to prescribe for therapeutic puroses. Fifty percent (8) of the
States reportng changes in application procedures referrd to the need for more extensive
documentation of course trscripts and test scores in this ara. The Continuing Optometrc
Education Classification System developed by the lAB and funded by the Public Health Ser­
vice has done much to standardize course names and contents. Despite these effons, however
many State boards lack adequate resources for their increasingly complex administrtive func­
tions. One board official said he .. doesn t feel comfonable with continuing education since
the deparent lacks the resources to help the board. The hoard approves courses, but it has
no way of monitoring attendance. " One- fifth of the boards reponed insuffcient funds and
         priar
staff as a        vulnerabilty in their licensure practices.

RECIPROCITY

The considerable varation among State laws governing the use of pharaceutical agents has
inhibited the use of reciprocity agreements among State boards, thus limiting the inter- State
mobilty of practicirig optometrsts. Reciprocity applies when two or more State boards deter­
mine that their licensure stadads are equivalent and enter into conttactual agreements grant­
ing licenses to applicants from one another s State. Another practice, endorsement, is less
restrctive in that a State board assesses the equivalency of any applicant s credentials to the
State s own stadards regardless of conttactual agreements.

Forty States recognize out-of- State licenses (16 by endorsement, 24 by reciprocity). But in ac­
tual practice, the licenses recognized are limited by varations in the scope of practice
authorized in the States. For example, half of the 16 States with TPA authorization that either
grant reciprocity or endorse licenses wil do so only for applicants who have TPA certification
even though aleady licensed, non- TPA certified optometrsts practice in the State. 41 Some
States, such as South Dakota, have passed laws narowing reciprocity to only those op­
tometrsts with TPA certfication. Others, in the words of one board official whose State had
yet to grt a license under its reciprocity agreements, simply noted that it " is difficult to get a
license with reciprocity because older practitioners must have the same skills as new ones.

State boards that endorse licensure by credentials can save an applicant from having to take
the National Board examnations a second time. But at least nine States (seven license byen­
dorsement, two have reciprocity agreements) require clinical examinations before licensing
out-of- State applican s. Acceptance of the National Boards encourages these limited agree­
ments, as five of the six States not accepting the National Boards do not license by credential
or grant reciprocity. However, many States recognize the National Boards only if the ap­
plicant has taen them within the past 5 years.

The overal effect of inconsistent State authorization of TPA and the subsequent emphasis on
clinical testing by some States has been , in the words of one board official, " to make
reciprocity a thing of the past. " As a result, optometrsts ' mobilty has become more and more
restrcted. In addition, optometrsts with TPA certfication are less likely to move to a State in
which the practice of trating diseased eyes is not alowed. Consequently, 85 percent of States
with TPA authorization have an optometrsts- to-population ratio above the national average.
In contrst, the availabilty of optometrsts in States without TPA authorization is limited. For
example , 8 of the 10 States with a critical ratio of less than 7 optometrsts per 100, 000 popula­
tion do not have TPA authorization.

A representative of AOA recognized reciprocity as an " emotional issue " and stated that as long
as States remai in ttansition toward a more unified scope of practice, the ttend against.
reciprocity wil persist. During the last 3 to 4 years , 7 of the 10 States reporting changes in
reciprocity restrcted the practice to varing degrees. Two States eliminated reciprocity com­
pletely, three restrcted it to TPA-certified optometrsts only, and two limited the number of
years the National Boards wil be recognized after passage. The remaining thre States incor­
porated the National Boards into their reciprocity agreements.
EMPHASIS ON CLINICAL TESTING

Testing, specifically clinical testing, has been a major focus of State optometr boards. Of the
24 State boards that identified a licensure activity as an exemplar practice , almost half (11)
cited the content and comprehensiveness of their clinical examination. Each of these examina­
tions seeks to assess the clinical readiness of candidates, and some require them to conduct
procedurs on patients. However, the contents of the tests var as do the detennations of ac­
ceptable performance. The coverage of comprehensive tests, as reported by board officials,
ranged from five to eight diferent skill areas, and one State introduced a laser video examna­
tion with no grades involved at all. Many States reported they constatly review and revise
their examation.

Because of these dynamcs, the National Board of Examners in Optometr (NBEO) has taken
the lead in standardizing the clinical examnation. Revisions of the 1979 Manual for the As­
sessment of Entr Level Clinical Skills include a grater number of clinical modules in which
patients are used to evaluate the candidate s skill in conducting pretest optometrc procedures,
administering optometrc tests, and presenting the outcome data. The manual stresses process-
oriented assessment methodology and provides checklsts for each module. Although the
manual was well- received in 1979, NBOE has recently sponsored workshops for 11 State
boards to promote its use and help States develop a re esentative sampling procedure for
determning skill areas to be tested for each applicant. Accordingly, Oregon , one of the
States visited by the NBOE, has made a concerted effort to standardize its practical examina­
tion in response to public concern over its validity. In a similar effort, Pennsylvania has con­
trcted with the International Association of Boards of Examiners (lAB) in Optometr for the
admnistration of a clinical skills examnation developed by the lAB. However, specific scor­
ing, standard settig and traiing of examners remai the responsibilty of individual States.

BACKGROUND VERIFICATION

Durg the early 1980' s, State medical boards were severely shaken by scandals involving
fraudulent credentials from two Carbbean medical schools and by breaches of securty on
some medical licensure examnations. State optometr boards have not had to face any com­
parable developments. Yet there is an increasing sense of vulnerabilty, parcularly in larger
States, about the adequacy of information they review on applicants for licensure. The
validity of crdentials has not been a major issue, but completeness of information bearng on
the applicant s professional conduct is becoming more of a concern.

In the past 3 to 4 years, one-third of the States have introduced changes that call for more
detailed information on applicants. Over half of these changes require proof of TPA certifica­
tion or passage of the National Board examinations. The remaining changes require more ex­
tensive references or fuller accounts of the applicants ' past , including the record of their
practice in other States or any discipline problems they may have had.

Overal , however, the scope of these changes is limited, and many board offcials suggest , in­
adequate. Because information on recent graduates can be readily obtairied from their op­
tometr schools, board officials feel that the gratest problem lies in the inadequacy of infor­
mation provided by   alady licensed out-of- State applicants. Boards are compelled to accept
this infonnation at face value, with the possibilty of omissions increasing their uneasiness
over its reliabilty. At least one- third of the State boards contact other States where applicants
have listed being licensed. One board representative expressed concern over the inadequacy
of this system primarly because the board " doesn t see qualty practitioners coming in.

More and more States, parcularly the larger ones, ar caling for a better tracking system.
Californa, for example, emphasizes the need for better coordination between States in order
that the board can obtai infonnation on the 2 000 optometrsts who are licensed in California
but not curently practicing in the State. Although other State boards are the primar source
of infonnation on out-of- State applicants, some board representatives believe communication
problems between States have made it increasingly difficult to trck applicants in this manner.

A second factor that inhibits more effective board action in reviewing applicant backgrounds
is the widely perceived inadequacy of the national disciplinar action clearnghouse main­
taied by the International Association of Boards of Examners in Optometr (lAB) and the
National Clearnghouse on Licensur, Enforcement, and Regulation (CLEAR). In their
responses to us, only six States reported using CLEAR , and only two hav used lAB to obtain
infonnation on licensur applicants. The majority feel that contacting State boards directly
provides more tiely and accurte infonnation at less cost. Some CLEAR members ex­
pressed doubts that complete infonnation is distrbuted to the States and others said that the
lack of parcipation by al 51 States limits the usefulness of the infonnation. Up until Septem­
ber 1987, in fact, lA , on the advice of its counsel, would not release disciplinar infonnation
it had been collecting on a quarerly basis. But, lAB is now tang a more active though stil
limited role as a disciplinar clearnghouse. It provides the name of the State in which a prac­
titioner has been disciplined and refers the request for infonnation to a board offcial within
that State for more details. Changes are in order if either clearnghouse is to be more effec­
tive. Four States were unaware of their services altogether, and others did not know how to
gain access to the infonnation.
                                         DISCIPLINE


Over the years, the authority of State boards to discipline optometrsts has gradually been in­
creasing with respect to both the grounds upon which they can tae disciplinar action and the
type of action they can take. Durng the past 3 to 4 years, about one- third of the boards have
experienced some legislative or regulatory change concerning their disciplinar authority.
Nearly all the changes have increased that authority, either enhancing their range of options ur
expandig the number of areas in which they can take action. However, a rule recently
proposed by the FrC (" Eyeglass II" ), would disallow State restrction of commercial op­
tometr. When promulgated , this rule wil preclude State boards from: placing prohibitions
on employer-employee agreements between optometrsts and persons who are not op­
tometrsts, prohibitig the use of trade names, limiting the number of branch offices that op­
tometrsts may operate, or prohibiting the practice of optometr in commercial locations such
as shopping malls.

As of May 1987, all boards had the right to revoke a license and 48 had the right to suspend a
license. In most States, however, the other tyes of disciplinar action that could be imposed
were limited: 11 States had the right to invoke probation , 8 States could issue repriands, 6
States could impose censur, 4 States could apply restrctions on an optometrc practice, and 5
States (with the recent addition of Calfornia) could levy fines.47 These numbers are increas­
ing as more States gai a grater rage of disciplinar actions. Yet most still lack a full com­
plement of options as well as basic authorities, such as .the power to issue subpoenas or to
suspend immediately the license of an optometrst who poses a clear and present danger to the
public.

INCIDENCE AND TYPE OF DISCIPLINARY ACTIONS

How many and what tye of disciplinar actions are being taen against optometrsts in the
United States? This question is a basic one, but one that we leared could not be readily
answered. The existing infonnation bases were too limited, even to provide reasonable es­
timates.

Accordigly, in discussions with representatives of 49 State boards, we asked them to indicate
the number and type of disciplinar actions imposed on optometrsts during each of the past 3
years. We received data from 47 States. The result was a nearly complete picture of the ex­
tent and nature of disciplinar actions taken in 1984 1985, and 1986.

Durg this 3- year period, there was a moderate increase in the annual number of disciplinar
actions taken (see figure il). In 1984 and 1985 the number of actions reported was 157 and
204 , an increase of 30 percent. The following year 224 actions were reported, an increase of
only 10 percent. However, in 1986, 1 State reported almost 100 disciplinar actions, account­
ing for 40 percent of the total for that year. If that State s rate of disciplinar actions had
remained constant with its rate for the 2 preceding years, the total national disciplinar actions
reported between the years 1985 and 1986 would have decreased by 10 percent.
                          - - - .--
                      - ----.
                   - ---             - - ------ -----
                                 - -----         ---    - ---- - ---
                                                                 --- --------
                                                                           ----- -- ----------       "'- -----
                                                                                                 -----   ...       .... - - '--- -."..- -----
                                                                                                              .------
                                                                                                                ---                     ---   - --- - ----- -- - - -.,,-. -" - - ---_- -- - --




                                                                                     FI G URE III
                   NUMBER OF STATE DISCIPLINARY ACTIONS, 1984-1986
                                                                                                                                                                                           Total
             240
             220
                                                                                                                                                                                           Other
             200
             180                                                                                                                                                                    r7 Revocations.  Proca­
                                                                                                                                                                                       lions. &0 Suspensions
             160
             140
             120
             100




                                                 1984                                     1985                                            1986


Source: State Optometry Boards as Reported to

the Office of Inspec tor General





In this 3-year period, tier 1 actions--the more serious ones involving revocation , probation , or
suspension--accounte overal for 42 percent of the reponed actions. They composed 38 per­
cent of the actions in 1984 , 54 percent in 1985, and 35 percent in 1986. The tier 2 actions in­
volvig less serious actions such as reprimads and fines (and designated in figuC? IV as
 other ) accounted for somewhat over half of the actions reponed for the 3 year. However
actions taen by just one State boar of optometrsts made up hal of the tier 2 actions durg
this period.



                                  FIGURE IV
                TYPE OF DISCIPLINARY ACTIONS, AS A PERCENTAGE
                     OF ALL REPORTED ACTIONS, 1984-1986
                                                                                                                                                                                                        OTHER
                                                                                                                                                                                                        "",0",,-
                                                                                                                                                                                                   SUSPENSIONS

                                                                                                                                                                                                    REvOCATIO


                                                                                                                                                                                                    PROBATIONS




                                                                                                                                                                                            . 0

                1984                                                                                1985                                                                                         1986
                                                                                             Percent
Source: State Optometry Boards as Reported to

the Offic e of Inspec tor General
Suspensions accounted for 52 percent of all tier 1 actions reported. Probation , a disciplinar
option for only 11 boards and considered an exemplar practice by 1 board , represented
23 percent of tier 1 actions and 8 percent of all disciplinar actions reported. Compared to
other State professional boards, optometr boards make much less use of probation as a dis­
ciplinar tool. State dental boards and chiropractic boards imposed probation in 25 percent
and 20 percent of the reported cases, respectively, during 1984- 1986.

When the disciplinar performance of State optometrc boards is compared to that of State
medical boards and denta boards, other notable differences emerge. Within the tier
category, the medical doctors have been more inclined to impose the severest action of all: the
revocation of a license. While revocation accounted for 19 percent of al disciplinar actions
taken against medical doctors in 1984 and 1985, it represented 14 percent of actions against
optometrsts by optome     boards and 9 percent of actions against dentists by dental boards
durig the same 2 years.



Stil other differences exist. First, optometr boards have been more active in disciplining
members of the profession than both State dental boards and State medical boards. In 1985,
the latest year for which compartive data ar avaiable, optometr boards disciplined 8.5 op­
tometrsts per 1   000 active optometrsts , dental boards disciplined 5.4 dentists       er 1   000 active
dentists, and medical boards disciplined 4. 2 doctors per 1 000 active doctors. 5 It is important
to recognize, however, that the differential has been decreasing and that since a much smaller
proporton of optometrsts and dentists are subject to hospita peer review practices, the
reviews of the State optometr and dental boards may be of somewhat greater overall impor­
tance.

The varations in disciplinar performance ar no less apparent when State optometr boards
are compared among themselves. Durng the years 1984- 1986 for which we collected data,
we found that two States disciplined optometrsts at a rate far exceeding that of any other
States. In fact, in one of these States disciplinar ac ons accounted for 40 percent of all ac­
tions taken in 1986, 21 percent in 1985, and 27 percent in 1984. At the other extreme, 10
States (out of the 47 which reported) disciplined no optometrsts at all during the 3- year
period. Thus, the State boards ' rates vared from a low of zero to a high of 41 actions per 100
licensees. The national average was 3. 6         actions and the median was . 78 actions per 100 licen­
sees.

Substantial varations among the boards are also apparent when their rate of disciplinar ac­
tivity is corrlated with size and location. Since year-to- year fluctuations may be misleading,
we aggrgated and analyzed the data over a 3- year period, 1984 to 1986. Our examination
made it clear that the rate of disciplinar actions agaist optometrsts tends to be much lower
in the States with the largest numbers of practicing optometrsts than in States with the smal­
lest numbers. Thus, among the four categories of States (ranked according to their number of
active civilan optometrsts), the top two categories, which accounted for 61 percent of all ac­
tive civilan optometrsts in the United States, represented only 28 percent of all reported dis­
ciplinar actions imposed on optometrsts from 1984 to 1986 (see figure V).
           ~~~         ..                            ~~~ '" ..




                                                                                      FIGUR V

                                  PERCENT DISTRIBUTION OF ACTIVE CIVILIAN
                             OPTOMETRISTS (1984) AND OF REPORTED DISCIPLINARY
                               ACTIONS (1984-86). BY SIZE RAKKI!'G OF STATES



                                                                                                                       _26:1
                                   lRG.
                                                                      E). LRG. 8UO:
                                                                                                                       EX. LAC.    -;r
                                                                       5" -9:1                                        SM.   -'(r
                                                                                              Mt. -62'
                                                     M(D. -3D

                                              Ac tive Civjk:                                       Reported Disc ipiinory
                                                Optomet                                                   Ac tions




                      RrpOp.T TO THE PRESIDEt.'T AND
        Sourc : rU:"TH

        tONCRes!: ON THE ST"'l.S or HEATH PERSOJoN(L and
        Stat Ot"tomelry BoardS 01 Reported to tne OiG




With respect to regional comparsons, the disciplinar          rate was highest in the Norteast     action
and the South, and lowest in the West Although the Norteast and the South collectively had
48 percent of the active civilan optomenists, they were responsible for 71 percent of the
reponed disciplinar actions (see figure VI). On the other hand, the comparable figures for
the Western States were 24 percent and 9 percent (figure VI).

                                                                                 FIGUR VI
                                   PERCENT DISTRIBUTION OF ACTIVE CIVILIAN
                                OPTOMETRISTS (1984) AND REPORTED DISCIPLINARY
                              ACTIONS AGAINST OPTOMETRISTS (1984-86) BY REGIO:"


                                "lDwe:;_2
                                                                      E:AS'
                                                                                           "lDweST.20


                                                                                                                      wtST-'"

                                 SQUH-27:                            weST_:'"
                                                                                                   SOIJH.3!

                                               Ac tive Civilian                                    Reported Disc iplinory
                                                Opto!'etrists                                            Actions




             'ce n:-"      t:=::": i;:. T.. cc:t:s;
        c.::u ES5 or T..            ..S Co':- Ht,r"!H CE              C":
        Stellt   to""et' ) a:lClrCf  cs: ,"fD:I'leC to , ,fI. 01(.




Why is the rate of disciplinar actions higher in some States than in others? Is it because prac­
ticing optometrsts in some States ar more incompetent, dishonest, or unprofessional than in
others? Is it because of difering levels of board commtment to tae action? Is it because of
operational constraints associated with inadequate authority or insuffcient resources? Each of

these factors may be explanatory to some extent, but in the case of onc insufficient resources
--we have some data to suggest an association.
We found that of the 10 boards with the highest rate of disciplinar actions between 1984 and
1986, 8 had renewal fees equal to or above the median annual renewal fee of $50 in 1987.
the other end , however, the association was not as strong. Of the 10 boards with the lowest
rate of disciplinar actions, 5 imposed fees equal to or exceeding $50 , and 5 had lower fees.
Thus a compartively high renewal fee, although closely associated with above-average dis­
ciplinar performance, in itself is no guarantee of a higher level of disciplinar activity.


Finaly, it is important to recognize that State optometr boards are not the only forums for dis­
ciplining optometrsts. Another, as noted in appendix I, is the Office of Inspector Genera
(DIG) which can impose sanctions on professionals who have committed fraud or abuse.
During the past 5 years DIG sanctions against optometrsts have averaged 2. 2 percent of all
DIG sanctions imposed, rising from 3 in FY 1982 to 11 in FY 1986.

TYPE OF VIOLATIONS

In our prior review of State medical boards, we found that the inappropriate writing of
prescriptions was by far the most common violation upon which disciplinar actions against
medical doctors were based. This was followed by violations concerning self-abuse of drgs
and alcohol. Despite the shar rise in medical malpractice cases in recent years, very few ac­
tions were based on inadequate clinical performance.

For optometrsts, the information available is less definitive, but judging from our discussions,
it appears that the pattern is quite different. Among the 49 boards we contacted, 38 percent
cited unprofessional conduct as the most common type of violation upon which disciplinar
action was based. The most frequent specific violations cited by respondents for this category
included unlawful use of TPAs, unlawful delegation of authority to opticians and other person­
nel , and inadequate patient examnations. Not one board representative reported self-abuse of
alcohol and drgs as the most common type of violation. Ten percent of the respondents cited
clinical misjudgment as the most common type of violation , and 17 percent as the second
most common type.

The greatest discrepancy appears to be in the propensity to take action because of poor clinical
performance. In the case of medical doctors we cited three factors that seemed to account for
minimal actions taen: (1) the complexity, length, and cost of such cases, (2) the substantial
burden of proof required, and (3) the considerable varations among doctors themselves about
what constitutes acceptable practice. In the case of optometr, the use of minimum patient ex­
amination requirments makes it easier for boards to take action against optometrsts. The
four States (South Dakota, Florida, Ohio, New Jersey) that reported having such a requirement
believe it to be an effective investigatory tool and an exemplar disciplinar practice. More
proactive in natu, investigators in these four States can check the optometrst s records to see
if the minimum examnation requirement has been met. In another technique , Illnois random­
ly selects a 10 percent sample of optometrsts durig relicensure. Minimum test requirements
and proof of diagnostic pharaceutical agent certification ar priorities of the investigation.
Although representatives of the four State boards with minimum patient examnation require­
ments reported disciplining at least one optometrst on the basis of clinical misjudgment , offi­
cials from hal of the State boards reported no such action. Overal , the abilty to discipline on
the basis of clinical misjudgment seems related to the number of optometrsts in the State.
Among the 17 smallest States, in tenns of the number of active civilian optometrsts, 3 (17 per­
cent) reported takng such disciplinar actions durng the past 3 to 4 years. This compares
with 45 percent of the States in the medium category, 81 percent in the large category, and 100
percent in the largest category. The reason for these differentials are not readily apparent.

There has been some discussion in States in the smallest two categories about the kind of ac­
tion needed to avert the poor clinical perfonnance that can lead to disciplinar violations.
Board officials from the majority of these States believe that mandatory education works well
and one State official expressed the need for a reexamination policy to detennine clinical com­
petency durng relicensure. The effectiveness of investigatory site visits was also noted. One
State that conducts such visits-- Mississippi--offers a temporar license to new practitioners,
and each board member, responsible for a congressional distrct , wil periodically investigate
to see if equipment and records meet the board' s standards.

SOURCE OF DISCIPLINARY ACTIONS

Consumer complaints are the major source of disciplinar actions agaist optometrsts. In 80
percent of the States, optometr board representatives reported that such actions are at­
trbutable to consumer complaints more than to any other source. This pattern holds regard­
less of a State s size or region. In the remaining States, board representatives reported other
optometrsts to be the primar source of complaints. Of the 35 States indicating a second
most common source, 30 percent reported other optometrsts and ophthalologists. These
complaits ar often prompted by the competitive situation and relate most often to adverts­
ing practices or substadard office practices. Sixty percent of all eye surgery is now being
done by 25 percent of all ophthalmologists. 51 Some optometr board officials suggested that
as a result some complaints come from ophthalologists whose surgical practices may be suf­
fering owing to insufficient referrals from optometrsts.

In contrst, only three States reported  referrals from the professional societies as the first or
second most common source of referrals, and in each case these referrals were considered a
second most common source. Board- initiated cases, representing 10 percent of the second
most common source of complaints, derived mostly from those boards which make automatic
site visits and impose sanctions for tardy license renewal.

One- fifth of the States have provisions allowing other agencies to report possible violations to
the optometrc boards. The majority of these relate to malpractice cases, but these referrals
often serve as a flagging mechanism since in many instances the boards are restrcted from in­
itating a complaint based on the case s 'outcome and process.
ADMINISTRATIVE PROCESS

Board representatives in 30 States identified some vulnerabilty or consttaint in the discipli­
nar process. One- third of the comments pointed to the considerable length of time required
to initiate and complete a case, citing the complexity of the hearng process and dependence
on State attorney general offices as key factors. An additional 30 percent of the responses
specifically mentioned the lack of trained investigatory staff with knowledge of optometr.
All the States in the large category (based on the number of active optometrsts) reponed
problems in the hearng and investigatory process. In many States, staffing and budget limita­
tions increase the severity of these problems.

Board representatives from 14 States reponed that changes have been made in recent years
with the intent of expediting the boards ' investigatory and review procedures. Most
prominent of these changes was the hirng of additional investigators and reorganization of
the board to place an increased emphasis on investigation. Nearly one- third of the States
have, in accordance with the American Optometrc Association s model optometr act, " The
Components of an Optometr Act, " made changes that to varing degrees separate the inves­
tigatory process from the board itself. Examples of these changes are the naming of investiga­
tion teams with a board representative, the appointment of a complaint and hearng officer, the
use of consultants, or the establishment of a new investigatory division.. Although some repre­
sentatives of these States consider the separation of the investigatory function to be an effec­
tive device, saying it warts widespread consideration , others look upon it as a constrnt
and would like to see the function returned to the board. Other changes made to improve the
efficiency and effectiveness of the judicial and investigatory processes ar wonh. noting:

      At least four States-- Marland,   Georgia ,   Wisconsin , and Mississippi--are using more
      and more prehearng settlement conferences which , in the words of one representative,
       provide real incentive for the licensee to shape up.

      At least two States-- Virginina and California-- have a computerized complaint tracking
      system which encourages expeditious processing and follow-up of complaints.

      New York publishes guides for investigators to use in optometrc investigations.

      Illinois now can use all fees collected from examinations and license renewals for board
      puroses. The board has been able to hire an additional investigator as a result.


INFORMATION SHARING

Infonnation on optometrsts who have been disciplined should be computerized and made
available to all State boards.

This comment made by a State optometr board official suggests the current limitations of the
disciplinar action   clearnghouses maintained by the National Clearnghouse on Licensure , En­
forcement, and Regulation (CLEAR) and the International Association of Boards of Ex­
aminers in Optometr (lAB). Simply put, most optometr boards discount the clearnghouses
as relatively ineffective mechanisms and tend to rely more heavily on communication among
themselves.

In our review, 21 of the boards reponed that they are regularly sending infonnation on discipli­
nar action to CLEAR and/or lAB: 11 to CLEAR only, 8 to lAB only, and 2 to both. Half of
the States not panicipating in the clearnghouses either offered no reason for not panicipating
or saw no need to do so. The remaider were not aware of the services or felt that the clearn­
ghouses did not provide substantive infonnation.

In addition to the low levels of State parcipation , several other factors severely limit the
effectiveness of the two clearghouses. State boards typically do not report infonnal actions
which account for an increasing percentage of board actions. Many do not report in a timely
manner, sometimes waiting for months before sendig the data to a clearnghouse. For ex­
ample, lAB, of which all States ar members, had infonnation on only 19 fmal actions taken
by State optometr boards during the first 6 months of 1987: 5 revocations, 6 probations, 7
licenses voluntary withdrawn , and 1 fine related to an advenising violation.

When a report is made, infonnation on the applicant can be limited, often not including the
Social Securty number, the date of birh , or the name of the optometr school attended. Al­
though the report usually specify the tye of disciplinar action taken , they reflect
widespread inconsistencies in how the underlying violations are described and the type of
disciplinar actions imposed. Within individual States, only seven boards noted that they
have a clearly defined set of guidelines for detennning an appropriate level of disciplinar ac­
tion.

Many of the board officials with whom we spoke expressed support for the soon-to- be estab­
lished national data ban under the Health Care Quality Improvement Act of 1986 (title IV),
and the Medicar and Medicaid Patient and Program Protection Act of 1987 (section 5). They
tend to see it as a helpful national response to the need for better infonnation sharng of
disciplinar actions and the reasons for them. At the same time, however, they and others
raise a number of questions that reflect concerns associated with the implementation of the
data ban. These concerns involve the accuracy, confidentialty, accessibility, and timeliness
of the data as well as the time and cost burden associated with the reporting process.

Finally, it is important to recognize that the infonnation sharng that occurs within a State is
also signifcant. Thirt-two States reponed sharng optometrc disciplinar actions, the
priar means of dissemination being a newsletter or publication sent to optometr licensees
or other health professionals. However, almost one- third of the States (9) that publish discipli­
nar actions do so in the fonn of a press release to the general media or specifically to newslet­
ters in the communities where sanctioned optometrsts practice. Fewer States send the
infonnation to State insurance agencies, welfare agencies or attorney general offices.
                                  RECOMMENDATIONS

Given the situation described so far, we offer two   priar recommendations. First:

                                           effectively.
      State governments should ensure that State optometry boards have suffcient resources
      to carry out their responsibilties

In most States this is not now the case. In both the licensure and discipline realms, resource
limitations (manly staf limitations) are undennining the capacity of the boards to do their
jobs. With the forthcoming implementation of the national data bank and the additional
responsibilities it wil place on the State boards, the strains generated by the current resource
shortal are likely to become even greater.

Since most of the revenue of the State boards derives from fees charged to practicing op­
tometrsts, they are probably the best source for generating additional revenue. As noted ear­
lier, the median annual revenue fee in 1985 was only $50.

Our second primar    recommendation is this:

      State governments should ensure that State optometr boards have suffcient
      enforcement authority and a full range of disciplinary options available to them.

Most boards, as noted, have few if any disciplinar          beyond revocation or suspension
                                                      options
available to them. To operate effectively they must be able to draw upon a full complement of
disciplinar actions including revocations, suspensions, probations, practice restrctions , fines,
censures, and reprimands. With such a range to choose from , they can gain valuable
flexibilty in detennning how best to respond in parcular cases.

No less important is the boards ' having the power to issue subpoenas and to suspend im­
mediately the license of an optometrst who poses a clear and present danger to the public.
Such authority can enhance their enforcement capabilty and enable them to conduct more
rigorous and effective oversight on behalf of the public.

In addition to these two primar recommendations, some other importaIt ones are diected to
State optometr boards, the International Association of Boards of Examners in Optometr,
the American Optometrc Association , and the U. S. Public Health Service.

State Optometry Boards

      State optometry boards should move toward the development of a high- quality,
      standardized national clinical examination.
Among State optometr board officials, this is a sensitive topic because it involves States
rights and prerogatives. Yet, frm a 51- State perspective, the existence of separate clinical ex­
amnations appear to be increasingly counter-productive. It restrcts mobilty of practicing
optometrsts. It suggests that the professional community canrlOt agree on the minimum level
of knowledge and skills necessar to practice optometr. It results in a duplication of resour­
ces devoted to testing. And it diverts State board attention and resources that might otherwise
be devoted to enforcement and discipline activities. Other professional boards have success.
fully established a national clinicallicerisure examination; it would appear to be constrctive
for State optometr boards to do the same.


      State optometry boards should shore up their credentials verifcation procedures.

A number of boards have aleady moved in this direction. But, as some State board officials
indicate, more must be done in tenns of the extent and type of (1) infonnation requested.of
licensur applicants and (2) verification undertaken by board officials. Without these
safeguards, many boards wil remain too vulnerable to irrgularties that could result in some
undeserving individuals receiving an optometr license and in an undennining of public con­
fidence in the licensure process.

International Association of Boards of Examiners in Optometry

      The lAB should accumulate and on a regular basis disseminate to State optometry
      boards changes in State practice acts and regulations and best practices concerning
      State licensure and discipline approaches.

For many years, the American Optometrc Association has been disseminating infonnation to
State boards and other entities on the changes in State practice acts and regulations and on per­
tinent court cases. This appear to have been a useful service. In the years ahead , however
we feel it would be desirable for the lAB , as the organization directly representing State
boards of examners in optometr, to assume more of this infonnation dissemination respon­
sibilty. In this context, it should be parcularly attuned to identifying and sharng infonna­
tion about especially effective approaches to licensure and discipline.

The American Optometric Association

      The AOA should encourage more extensive and effective interaction between its
      affliated State associations and State optometry   boards.


Such action is important because most State optometr associations appear to make few refer­
rals to State optometr boards. We urge that the AOA explore why that is the case and what
might be done to encourage more extensive and effective communication between the associa­
tions and the boards.
The Public Health Service



      The Public Health Service should assist the lAB to extend and improve its technical
      assistance and information dissemination activities.

The PHS has long provided such assistance to professional bodies, but in recent years it has
had minimal interaction with lAB , the national body that is most closely and diectly tied to
the State optometr boards. It is now an opportune time to extend whatever support is avail­
able to lAB to help it playa more effective leadership role vis-a-vis its member boards. This
is parcularly important with respect to the enforcement and discipline areas, where the need
for such leadership is compellng.
                                          APPENDIX I

COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE

Within the Deparent of Health and Human Services, we received comments on the draft
report from the Public Health Service and the Health Care Financing Administration (HCFA).
In addition, we received comments from a number of organizations outside of the Deparent:
The American Optometrc Association (AOA), the International Association of Boards of Ex­
amners in Optometr (IAB), and the National Board of Examiners in Optometr (National
Board).

Following ar   the   comments, in full , of each of the above pares and our response to them.

PHS COMMENTS

We concur. PHS through the Health Resources and Services Administration, wil provide tech­
nical assistace to the International Association of Boards of Examiners in Optometr       as par
of its professional collaboration with the organization. Limited funds, as available , wil be
used to extend PHS support in the enforcement and disciplinar activities of lAB.

DIG Response


           We ar pleased with PHS' readiess to extend assistance to the lAB and expect it
           wil faciltate a more effective leadership role by that organization.

HCFA COMMENTS

We have reviewed the draft report which focuses on State licensure and discipline practices
concerning optometrsts. The major finding in the report is that in both licensure and dis­
cipline realms, State board offcials tend to feel they are seriously understaffed and, as a result,
the effectiveness of both licensur and discipline operations is compromised. Since none of
the recommendations in the report require action by HCFA , we have no specific comments to
offer.

We concur with the report s findings and recommendations, and we support the efforts of the
ala to improve the curent State practices. Thank you for the opportnity to comment on this
report.

AMERICAN OPTOMETRY ASSOCIATION COMMENTS

you sent to Earle L. Hunter, O. D., Executive Dirctor of the American Optometrc Associa­
tion , has been referred to me (Thomas E. Eichhorst, J. ), as Director of the State Legislation
Center, for reply. The American Optometrc Association appreciates the opportunity to review
this draf report and to comment on it. We also appreciate that you have extended the time for
us to comment, because there was some delay in our receipt of the draft report.

The comments of the State Legislation Center of the American Optomettc Association , are as
follows:

Page 2:    It should be noted that the AOA definition of Doctors of Optometr now says, in .
           line 7 many states " rather than " some states, " as there are presently 23 states in
           which optomettsts are authorized to use pharaceutical agents for therapeutic pur­
           poses.

Page 7:    In the second paragraph , line 7, it should state " COE-accredited school" rather than
            COE-approved school." (This is the sole comment that Joyce Urbeck, staff of the
           Council on Optomettc Education , who also received a copy of the drt report,
           asked me to include in our comments.

Page 8:    Further updating the figures, in the first paragraph in the section entitled "
           DIVERSITY IN      TI   SCOPE OF PRACTICE " there are now 49 states, the Dis­
           ttct of Columbia and the Terrtory of Guam , which specifically pennit the op­
           tomettc use of pharaceuticals for diagnostic puroses and 23 states which pennit
           their use for both diagnostic and therapeutic puroses. Thus, 16 of these states
           have alowed the use of therapeutic pharaceutical agents (TPA) since 1985. Only
           one state, Marland, does not have a provision for any pharaceutical use. In­
           cidentaly, diagnostic pharaceutical agent     (DPA) legislation in Marland was
           passed by the legislature in 1988 but was vetoed by the governor. We understand
           that an effort wil be made in 1989 to overrde the governor s veto and enact this
           legislation. Alaska did enact DPAlegislation in 1988.

Page 9:    In regard to the Wisconsin law used as an example, it should be noted that TPA
           legislation was introduced in 1987, and we understand that it wil again be intro­
           duced in 1989.



Page 11:   In regard to the phrase in the first full paragraph relating to the mobility of op­
           tomettsts, it should be noted that the optomettc utilzation of pharaceutical
           agents for therapeutic puroses has been recognized as a cost-effective mode of
           providing such treatment in the 23 states with TPA authorization.

Page 13:   In the first pargraph relating to " DISCIPLINE, " please be advised that Eyeglasses
           II at this time is a proposed FrC trade regulation rule, and is not a " case. " It has
           not yet been promulgated (it wil not be " enacted" ). When it is promulgated by the
           Federa Trade Commssion , the rule wil be subject to judicial review. The
           American Optomettc Association plans to appeal any FTC trade regulation rule
           which purports to preempt the state consumer protection laws which were enacted
           to preserve the doctor-patient relationship and prevent abuses in the eye care field.
           The position of the AOA is that the FTC does not have the power to strke down
           vald state laws in the health care field and that the rulemakg record   does not sup­
           port the proposed Eyeglasses II rule.

Page 19:   Last sentence of the fist paragraph , in reference to llinois, " TPA" should be
            DPA"

Page 20:   In the second paragraph under " ADMINISTRATIVE PROCESS, " the reference to
           the " Model Optometr Act " should be to its correct title, the " Components of an
           Optometr Practice Act. " In addition , the American Optometrc Association State
           Legislation Center s Licensur and Regulation Commttee, composed of several
           members who have had experience as members of state optometr boards, is
           developing a Guidebook on Optometrc Discipline, which , like the Components,
           wil be shard with the members of the International Association of Boards of Ex­
           amners in Optometr and others interested in the licensure and regulation of the
           profession of optometr.

Page 24:   In regard to the recommendation to the IAB , it should be noted that for the last 23
           years, the American Optometrc Association, mindful of the fmanciallimitations
           and shortage of staf of the IAB , has attempted to disseminate informtion to the
           profession and to governmental officials on the changes in state practice acts and
           regulations. As previously noted, the extensive study of the components of an op­
           tometr law and the guidelines for the discipline of licensees are curent examples
           of these public-spirted efforts to help protect the visual welfare of the AmeriGan
           people.

Page 24:   When this report is made public, the Licensure and Regulation Committee of the
           State Legislation Center of the American Optometrc Association wil be pleased
           assist in its dissemination and to panicipate in the laudable efforts to further im­
           prove the licensure and regulation of the profession of optometr. In that regard
           the committee wil then consider appropriate effons to implement the recommenda­
           tion encouraging more extensive and effective interaction between state optometrc
           associations and state optometr boards. It should be noted that the word " af­
           fIiated" should be insened between the words " its " and " State association " as the
           American Optometrc Association is a federation of autonomous affIiated state op­
           tometrc associations.

Again , we appreciate the opponunity to have received a copy of the draft report and to make
these comments. If there is any other way in which the American Optometrc Association
State Legislation Center can be of assistace to you in your studies of the profession of op­
tometr, please let me know.


OIG Response

           We appreciate AOA' s readiness to help disseminate the final report and its wiling-
           ness to consider the matter of more extensive and effective interaction between
            State optometrc associations and State boards. We also appreciate its many help­
            ful suggestions. In each case we have made changes that ar responsive to the sug­
            gestions.

            Of parcular note is AOA' s comment about its long-established efforts to dissemi­
            nate infonnation on State practice acts. In recognition of that and of lAB' s interest
            in playing a more active role in this area (as expressed in its comments), we have
            completely revised the paragraph elaborating on our recommendation directed to
            lAB. Since lAB is the organization representing the State boards, we feel that over
            time it would be more appropriate for it, rather than the organization representing
            the profession of optometr, to emerge as the leading agent for disseminating infor­
            mation to State boards.

            Finaly, we have made the corrections    and/or   clarcations called for on pages 2, 7,
              9, 11, 13, 19, and 20.

INTERNATIONAL ASSOCIATION OF BOARDS OF EXAMINERS IN OPTOMETRY
COMMENTS

On September 20, 1988, the International Association of Boards of Examners in Optometr
received a copy of the above-captioned Draft Report prepared under the direction of Mark R.
Yessian , Ph. D., Regional Inspector General for Analysis and Inspections in your Boston of­
fice. The lAB wa s invited to comment on this draft, and it was indicated that such comments
would be taken into account in preparng the final report. Please forgive our tardiness in
responding, which is related to the fact that we moved our office in Washington and acquired
a full- tie Executive Director, Kenneth G. Crosby, Ed. D., during the specified comment

period.

On behal of the lAB , I wish fist to compliment your office on the insightfulness and quality
of the draft report We do believe, however, that certain areas and items need to be brought up
to date or clarfied in order to ensur its overall accuracy and completeness.

The lAB has been strving diligently for the last four years to develop the basis for a high-
quality, standardized, validated, and psychometrcally sound clinical skils assessment that can
be used by state boards of optometr for licensure pUIposes. A contract has just been signed
by the lAB and the Commonwealth of Pennsylvania for the first administrtion of the resul­
tant examnation, which wil occur in July of 1989. Several other states in the northeast have
requested the lAB to develop this test furter for a stadardized , regional , clinical skils assess­
ment, the results of which wil be recognized by at least thre or four states in the region begin­
ning in July, 1990. The lAB anticipates that additional states in the northeast wiUjoin with
the origial ones to fonn a larger group, as the results and reputation of the examination be­
come evident. In addition , several states in the central , mid-west region have indicated an in­
clination to follow a similar path.
The lAB' s development of its own offce , professional sta, and facilties places it in a much
improved position to service its constituency-- the state boards of optomett--and other
regulatory agencies. A computerized program for classifying continuing education and verify­
ing attendance at meetings for this purpose wil be integrated into a national data bank on
licensed optometrsts, which wil begin to meet the needs and demands established under the
Health Care Quality Improvement Act of 1986 and the Medicare and Medicaid Patient and
Program Protection Act of 1987. We look forward to working with the Public Health Service
to solve problems concerning the accuracy, confidentialty, accessibilty, and timeliness of the
data, as well as the time and cost burdens associated with the reponing process. Provision of
assistace to state boards in the sometimes overwhelming admnistrative task of maintaining
and sharng infonnation regarding disciplinar actions, along with verifying, classifying and
credentialling of continuing education for relicensure, and the credentiallng of candidates on
the entt level, is a necessar, appropriate, and ongoing goal of the lAB. Development and
use of a national data base wil help eliminate or reduce many of the ineffective and inefficient
procedurs curently being employed in this area.

The IAB has cooperated and worked with the American Optometrc Association (AOA) on
many progrs and in many areas. In these effons, the lAB has recognized the need for each
organization to maintain its independence, so as to be able to meet its own responsibilties to
state and regulatory agencies, the public, and the optometrc profession. The IAB looks for­
ward to a tie in the near futue when it can administrtively be solely capable of accumulat­
ing and disseminating to state boards, on a regular basis, changes in state practice acts and
regulations, along with recommendations tconcerning state licensure and discipline ap­
proaches. We concur with the recommendation hat the AOA should encourage more exten­
sive and effetive interaction between its state associations and state optomett boards
concerning cenain topics only, such as disciplinar actions, ethics, and appropriate standards
of professional car. Greater communication between state associations and state boards in
this area can enable practitioners to be better educated and advised as to what is appropriate
and acceptable professional behavior and what is not. However, the lAB believes that such in­
teraction should not go beyond the limits necessar to maintain the independence of action by
state boards that is required to fulfill their responsibilties for the public welfare and to ap­
propriate state and federal regulatory agencies. The IAB wil welcome the assistance of the
Public Health Service in improving and extending its dissemination activities. It should be
noted that the PHS previously provided much needed and appreciated suppon for develop­
ment of the lAB' s Continuing Education Classification System.

The lAB is most appreciative of this opponunity to comment on the draft report, and it hopes
that its contrbution can be used constrctively in preparng the fmal version.

o IG 
   Response

              We agree with the IAB that while greater communication between State associa­
              tions and State bords is desirable , it is imponant to assure that State boards retain
              the necessar independence to fulfull their public responsibilties. Also, we are
              pleased that the lAB looks forward to a more active role in accumulating and dis­
             seminatig information to State boards. Finally, we have noted in our final report
             the contract signed by the lAB and the Commonwealth of Pennsylvania.

NATIONAL BOARD COMMENTS

This is in response to the letter dated September 20 I received from Richard P. Kusserow, In­
spector General, Deparment of Health and Human Services, with the drt report entitled,
 State Licensur and Discipline of Optometrsts.

First, let me point out that this is not a formal response from the National Board of Examiners
in Optometr. The National Board provides a national standardized examination for op­
tometrc state boards to accept, voluntarly, as par of the licensure process in the varous
states. In addition to the National Board wrtten examination which is accepted by all but five
of the 53 licensing jursdictions in the United States and its terrtories, optometrc state boards
administer addtional examations within the state prior to licensure. Consequently, my
remarks ar those of the Executive Director of the National Board and address the factual con­
tent of the report regardig your mention of the National Board, and raise one or two ques­
tions on certain issues that I trst wil be useful.

On page 2 you state that " optometrsts are  specializing (my emphasis) in occupational vision
needs, sports vision needs, or the specifc vision needs of the elderly, children , or those with
low vision. " Given that no recognized specialty certifying bodies exist in optometr, I am con­
cerned that your use of the word " specializing " may be misplaced. If you have found from
your studies that optometrsts do specialize in these areas of eye care, then the word " specializ­
ing " should remain. This is an importt issue for the future of the profession , parcularly in
areas that requir additional trning and/or expertse to provide car to special categories of
patients or in special technical areas of optometrc practice. Similarly, the statement that
 group practice and  specialization (my emphasis) ar increasing " is an important statement
that should not be allowed to stand without furher review.

On page 7, your use of the " NBOE" (note order of letters) and " National Board of Optometr
Examination " is incorrect. The National Board of Examiners in Optometr is a 501(c)(3) tax
exempt corporation , providing testing services to the profession of optometr. It does not use
an acronym , or a combination of initials (such as NBEO or NBOE). If a shortened fonn of its
full name is to. be used we prefer to be referred to as the " National Board. " Further on page 7
in the fourt paragraph , you make the statement " Between the years 1981 and 1986 an
average of 79% of the candidates takng the examination met or exceeded the passing score of
75. " I am not sure I understand where you obtained these data. The National Board' s ex­
aminations during the period under study (1981- 86), were admnistered in thre pars; Par I
Par ITA and Par lIB. The passing score for each Par is a scaled score of 300 , on a scale of
100 - 900. Consequently, the use of the passing score of "75" (note also that no indication is
given as to whether this is a scaled or a percentage score) is totally inaccurate. To be sure that
you quote the National Board standards accurately, I suggest that you contact me by telephone
so that I can discuss this with you diectly. To imply that the National Board, which was the
first national board of a licensed health profession to institute criterion-referenced standard set­
ting in 1981 , uses 75 as a passing score, does not add to the quality of your report nor the
reputation of the National Board. This is an issue that is often not well understood by govern­
ment officials. Because of the importance of your report we are wiling to take the time to be
sure your statements are corrct.



On page 24 , your recommendation that " The AOA should encourage more extensive and effec­
tive interaction between its State associations and State optometr boards " suggests the begin­
ning of a new diection for the Federal Government. It has been commonly understood in the
credentialng community, and parcularly with those of us who deal with the licensure of can­
didates for practice in the health professions , that the state associations which represent the
vested business and professional interests of the    practitioners   should   not   influence the
decision-makng of the state regulatory boards which are charged with protecting the health,
safety and welfare of the  public.  To recommend in an Inspector General' s report that state as­
sociations should " effectively interact " with the state boards, undennines much of the work
over the past two decades to assure independence of state board action. If this is trly the In­
spector General' s recommendation, then let it stand. However, if this is a statement that has
been not given full consideration then I recommend that this be reconsidered prior to printing
the final report.

I appreciate the opportunity to react to your report. Again , please understad that this letter
not an offcial position of the National Board of Examners in Optometr. It is nothing more
than the reflections of its Executive Director after having read through the draft copy of the In­
spector General' s report you provided.

DIG Response

                 The National Board sttesses the importance of the independence of State boards.
                 As noted in our previous comment, we concur. Yet, such independence does not in­
                 clude more effective coordiation between State boards on matters concerning the
                 referr of cases to the Boards. Such interaction takes place between State boards
                 and professional associations in many other fields. It would appear to be war­
                 ranted in the field of optometr as well.

                 With respect to the technical connections suggested by the National Board, we
                 have made the suggested changes in the final report.
                                         APPENDIX II


 BACKGROUND

The licensure and discipline of health care professionals is a traditional function of State
Government. It dates back to the pioneering efforts of the American colonies in the 1600' s. .
But it did not gain pennanence until the late 1800' , when Texas passed the first modern medi­
cal practice act (1873) and the U. S. Supreme Coun upheld West Virginia s act as a valid exer­
cise of State police powers (1889).

In recognition of this traditional State role, Congress, when it established the Medicare and
Medicaid progrs in 1965, left it to the States to detennne whether physicians and other
health care professional were legaly authorized to parcipate in these progrs. Sub­
sequently, Congrss has empowered the Deparent of Health and Human Services (HS)
and its predecessor (Health, Education and Welfare) to impose sanctions on those profes­
sionals (and other provider groups) who have abused or defrauded these progrs. However
the Federal Government has continued to depend on the States to serve as the disciplining
agent for trsgressions that do not diectly relate to the Medicar or Medicaid programs.

Thus, States have been providing an important front line of protection for beneficiares
these two Federally funded progrs. This protection has been at no cost to the Federal
Government and at only minimal cost to State Government. Nearly al the costs have been
covered by licensure fees imposed on the health car professionals.

As Medicar and Medicaid expenditures have grown to a point where they now account for
more than one- four of United States health car expenditues, Federal interest in the effec­
tiveness of State licensure and discipline practices has increased. For the most par , this
heightening interest has focused on those practices concerning medical doctors. In essence
this is because they ar the most prominent of the health car professionals and because they
account for a larger share of Medicare and Medicaid expenditures than any of the other
groups. More specifically, serious concerns about the adequacy of State medical licensure and
disciplie practices were rased by Genera Accounting Office reports, media investigations,
and scandals involving frudulent medical crdentials frm two Carbbean medical schools.

Accordigly, in 1985 and    1986, the Office of Inspector General conducted an inspection ex­
amining the activities of State medical boards. Based primarly on visits to 14 State boards
and telephone discussions with the executive dictors of another 10, the inspections sought to
provide an overview of the major developments and issues facing the boards. The final report,
issued in June 1986 , received widespread publicity and helped generate refonns to improve
the effectiveness of State medical boards, parcularly with respect to their disciplinar prac­
tices.

Given the positive response and effects of that inspection , the OIG decided that a similar one
directed to other health care professionals eligible for Medicare or Medicaid reimbursement
would also be warted. For these other professionals no less than for medical doctors, State
licensur and discipline boards offer a vital front line of protection for the beneficiary.


We chose dentists, podatrsts, chiropractors, and optometrsts as a focus because, like medical
doctors, they ar diect care professionals who have diagnosing and prescribing respon­
sibilties, who can receive dict Medicare reimbursement, and who , overal , represent a major
presence on the health care scene. Dentists , podiatrsts, chiropractors , and optometrsts
together with doctors of medicine and osteopathy are the six groups of health care profes­
sionals defined as " physicians " under Medicare law.

Recognizing the value of obtaining a better national picture of the licensure activities of these
and other health care professions, HHS (through the Public Health Service) awarded a 3- year
conttct in July 1984 to the Council of State Government (CSG) and the National Clearn­
ghouse on Licensure Enforcement and Regulation to develop a composite State- by- State infor­
mation system on the credentialing of health professions. The project generates informational
repons on the varous professions, drwing primarly on State practice acts and State board
regulations. The repons present data in separate tables that addrss such matters as the or­
ganizational pattern of the State boards, the administrative and enforcement functions of the
boards, the types of examnations required, and the fees imposed. Overall , the descriptive in­
formation provided focuses more on licensing than on disciplinar activity. The CSG and
CLEAR have published repons on each of the four groups to be addressed in this inspection--
chiropractors (1986), podiatrsts (1986), dentists (1987), and optometrsts (1987).

The CLEAR , which is composed of State offcials involved with occupational licensing and
regulation issues, also runs the National Disciplinar Information System (NDIS). This is an
interstate servce that provides parcipating State agencies with bimonthly repons on discipli­
nar actions taken agaist licensed professionals in a number of professional disciplines. Den­
tists, podiatrsts, chiropractors, and optometrsts are among the occupation groups included in
the system. The disciplinar actions taken against these and other groups ar sent to NDIS on
a voluntar basis and at this point involve only 32 States. The Federation of State Medical
Boards operates a similar but more detailed and complete system that focuses on disciplinar
actions taken agaist medical doctors.

Two recent congressional actions provide an imponant stimulus toward the funher sharng of
data on disciplinar actions. First of all , the Health Care Quality Improvement Act , (P. L. 99-.
660), passed in 1986, calls for the establishment of a national data bank to be run by the HHS
Secretar (or a designee thereof). It stipulates that entities making malpractice payments as­
sociated with the work of physicians and other licensed health care professionals must report
pertnent information concerning those payments to the data bank. Similarly, it mandates the
reportng of disciplinar and peer review actions taken against medical doctors, osteopaths
and dentists. The information maintained in the data bank is to be available , upon request , to
State licensur and discipline boards, health care entities, attorneys who fied a malpractice
complait with a coun against a specific practitioner, and individuals interested in records on
themselves.
The second pertnent congressional action   (PL.  100- 93) is the Medicare and Medicaid Patient
and Progr Protection Act. Passed in 1987, this legislation includes a provision that would
extend the national reportng responsibility of State licensure and discipline boards to encom­
pass disciplinar actions taen against podiatrsts, chiropractors, optometrsts, and other
licensed health care practitioners.

Thus, on the basis of the authority provided by these two acts, State boards wil be able
draw upon a national data ban to detemrne if any disciplinar actions have been taken
agaist an applicant for licensur. It is expected that this data ban wil be operating in the
near futue.



Finaly, with respect to optometrsts, on whom this report focuses, it is important to add that
since 1984 , the International Association of Boards of Examners in Optometr has collected
information on the disciplinar actions of State optometr boards on a quarerly basis. All 51
States (DC included) ar members of the lAB. Yet for the last 2 years, an average of only 25
percent have actually reported to lA. Up until September 1987, lAB , on the advice of its
counsel , did not release disciplinar informtion to State boards. However, in anticipation of
the establishment of a national data bank, lAB is taking a more active role as a disciplinar
clearnghouse. It now provides the name of the State in which a practitioner has been dis­
ciplined and refers a request for information to a State board official within that State.
                                        APPENDIX II

METHODOLOGICAL NOTES

We held discussions with representatives of 49 State boards. (New Hampshire and the Distrct
of Columbia did not parcipate. ) Usually, we taled with the executive director of the board
and often with a chaian or other member of the board. Our aim was to obtain infonnatiori
and discuss issues with a board representative who was well infonned about board activities
both at the tie and over the previous 3 to 4 years.

The major ara in which we sought quantitative infonnation concerned the disciplinary ac­
tions taken by the boards agaist optomettsts in 1984 , 1985, and 1986. Here, we asked for
the number of fonnal actions taken and a breakdown of the type of actions--whether as revoca­
tion , suspension, probation , or other.

Forty-seven of the boards were able to provide us with totas for disciplinar actions taken in
each of the 3 years. (Georgia and Missouri were the exceptions. Two State boards that par­
ticipated in the interviews could not provide the data within the sufficient time period.

We cannot   confi that the infonnation is all-inclusive or completely accurate. However, we
did stress that we sought all board disciplinar actions against optometrsts, and we often
checked back when we suspected there might be errors. The board offcials, typically, were
quite responsive in checkig their records and providing the data in a timely fashion.

In analyzing the differential perfonnance of the States in disciplining optometrsts, we decided
to aggregate the disciplinar data over the 3- year period. We felt that comparsons over only a
1- or 2- year period would be of questionable value because of distortons that might arse be­
cause of year-to- year fluctuations.

In this context, we treated perfonnance as a dependent varable and considered two major in­
dependent varables: size and region. With respect to size, first of all , we identified the num­
ber of active civilan optometrsts in each State and, then, using varance analysis, identified
four clusters of States differentiated on the basis of the number of active civilan optometrsts.
The clusters and associated States are as follows: (1) small (DE , DC, VT, AK , WY, ND , SD
   , NV, NH , UT, RI , MT, il, NM , MS, NB , ME, and WV); (2) medium (SC, CT, AZ, AR
KS, AL , CO, MD , KY, GA, OK , OR , lA , NJ , VA , MO, MN , NC, WA , and LA); (3) large (TN
WI, IN , MA, PI, MI , OH, TX , PA, IL , and NY); and (4) extr large (CA).

With respect to region , we used U. S. Bureau of the Census categorizations to identify four
regions of the countr. The categorizations and associated States are as follows: (1) Northeast
(CT, ME, MA, NJ, NH , NY, PA , RI , and VT); (2) South (AL, AR , DE , DC, FL , GA , KY, LA
MD, MS, NC, OK , SC, TN, TX , VA , and WV); (3) Midwest (lA , IL , IN , KS, MI , MN , MO,
NE, ND , OH, SD and WI); and (4) West (AK , AZ , CA , CO, HI, il , MT, NV, NM , OR , UT
    , and WY).
                                                     APPENDIX IV


ENDNOTES

        For the 1975 data, see U. S. Deparment of Health and Human Services, Public
        Health Servce, 
          The First Report to the President and Congress on the Stare of
        Health Personnel in the United Stares,'March            1986, pp. 6- 13 and for the 1986 dam,
        see Iring Bennett, O. D., Advisory Enterprises,           State of the Ophthalmic Industr:
        1987, 1987, p.

         Spread the Good News,                    Review of Optometry, 
                 March 1987, p. 47.

          S. Deparent of Health and Human Services, Health Care Financing Ad­
        ministrtion , Health Statistical Information Service, phone interview.

         Annual Income Surey:                     How Do You Compare?"                     Optometric Management,        July
        1987, p. 42.

        Commerce Clearinghouse Medicare and Medicaid Guide, 
                                        vol. 3, section 15, 504
        1984.

         Annual Income Surey: How Do You Compar?" p. 42.

        Council of State Governments, 
    State Regulation of the Health Occupations and
        Professions,  June, 1987 p. 48. As noted in the American Optometrc Association
        (ADA' s) comments in appendix IV, the ADA' s definition was recently revised to in­
        dicate that " many " rather than " some " States use pharaceutical agents for
        therapeutic puroses.

        American Optometrc Association                          Optometry Today, 
            1985, pp. 8- 17.

         Students Forecast Their Futures,                       Review of Optometry, 
             May 1987, p. 92.

   10. State    of the Opthalmic Industry,                  pp. 1­


   11. " Students Forecast Their Futures.

   12. Stare of      the Opthalmic Industr,                 pp. 1- 16.


   13. Ibid., p.     6.



   14. Annual Income Survey:                    How Do You Compare?" pp. 30- 42.

   15. Ibid. , p. 42.
16. U. S.      Deparent of                 Health and Human Services, Public Health Service,                     The Fifh
       Report to the President and Congress on the State of Health Personnel in the
       United States, 
 March 1986, pp. 1- 10.

17. Optometry Today,                    p. 7.




18.    Fifh Report to the                President,           lO.

19. Ibid., p.          6, 1.



20. As provided   to the Health Resources and Services Administration by the American
       Optometrc Association and the Association of Schools and Colleges of Optometr.

21.    Fifh Report to the               President,        p. 6; 2.



22. Optometry             Today,        p. 7.



23. Fifh Report                to the President,          p. 6, 5.




24. Ibid., p. 4.
25. Optometry             Today,        p. 6.



26. The    International Association of Boards of Examiners in Optometr,                                     A Continuing
       Optometric Education Classifcation System,   May 1985, p. 6.

27. Here and            elsewhere in this repon , unless otherwise noted, the data are derived
       frm our survey of the 49 States. See appendix IV.

28.    State Regulation of the Health Occupation,                               p. 62.


29. We developed the $2 millon estimate as follows: For each State, we multiplied the
       total number of licensed optometrsts in 1984 by the renewal fee that year. That
       resulted in a total of $1. 6 millon. We then assumed that renewal fees accounted
       for two-thirds of overal fee income from optometrsts and, accordingly, added one-
       third to the total. This resulted in a new total of $2. 1 millon.

30. State       Regulation of the Health Occupations,                             pp. 60- 61.

31. National           Boards of Examners in Optometr,                             Candidates Guide, 
   1987. p. 75.


32.    State Regulation of the Health Occupations,                                pp. 49- 59.
33. National Board of Examners in                         Optometr,               An Era of Achievement 1980 - 1986
      pp. 14- 15.


34. Council         of State Governments, p. 47.

35. Council of          State Governments, p. 59.

36. International Association of Board of Examners of                                       State Board
                                                                                        Optometr,

      Forum,       Februar, 1987 and updated                      infonnation provided by the American Op­
      tometrc Association.

37. Council         of State Governments, p. 47.

38. Ibid., p. 47. TPA legislation was introduced in Wisconsin in 1987 and is expected
      to be introduced agai in 1989.

39.   State of the Opthalmic Industry,                    p. 5.


40. International Association of Boards of Examiners in                                  Optometr,   Candidates
      Guide; Examination in Treatment and Management of Ocular Disease, 
                                  November
      1987, and April 1988.



41. Council         of State Governments, p. 64. and the International Association of Boards
      in Optometr 
       Candidates Guide; Examination in Treatment and Management of
      Ocular Disease, 
      November 1987 and April 1988 p. 7.

42. Ibid. , pp. 58- 68.

43. Ibid., p. 58.
44. An Era        of Acheivement, p. 11.

45. International Association of Boards in                            Optometr,       Assessment of Entry Level Skils
      1987, p. 10.

46.   State of the OpthalmicJndustry,  p. 15: The AOA , in its comments in appendix IV,
      notes. that when the rule is promulgated, it plans to appeal it.

47. Council        of State Governments, pp. 56- 57.

48. The    national data bank-now being established under title IV of the Health Car
      Quality Improvement Act of 1986 wil provide a basis for answering this question
      in the years ahead.
                                                                                     , p.




49. From  Federation of State Medical Boards and Office of Inspector General discus­
    sions with State optometrc boards and State dental boards.

50. See  Federation of State Medical Boards and 
  Fifh Report to the President,    p. 6, 14.
    The actual rate of discipline is probably slightly less that that indicated in the text,
    because in a few instaces, the discipline action totals involve actions against the
    same optometrst , dentist or medical doctor. Also, to arve at a 1985 estimate of
    the number of active optometrsts, we assumed that the increase from 1984 (the
    latest date for which national data were available) and 1985 equaled the average in­
    crease of 315 that applied between 1980 and 1984.

51. " Opthalmology s Fragmented Future,      Review oj Optometry,    Februar, 1987          55.
